No. 20-1327

In the Supreme Court of the United States
PDX NORTH, INC.,
Petitioner,
v.
ROBERT ASARO-ANGELO, IN HIS OFFICIAL CAPACITY AS THE
COMMISSIONER OF THE DEPARTMENT OF LABOR AND WORKFORCE DEVELOPMENT OF THE STATE OF NEW JERSEY,

Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
BRIEF IN OPPOSITION

Gurbir S. Grewal
Attorney General of New Jersey
Jeremy M. Feigenbaum*
State Solicitor
Melissa H. Raksa
Assistant Attorney General
Emily M. Bisnauth
Christopher Weber
Ryan J. Silver
Deputy Attorneys General
Office of the Attorney
General of New Jersey
25 Market Street
Trenton, New Jersey 08625
(609) 292-4925
jeremy.feigenbaum@njoag.gov
* Counsel of Record

i
TABLE OF CONTENTS
Page(s)
TABLE OF AUTHORITIES. ...................................... ii
INTRODUCTION. ....................................................... 1
STATEMENT OF THE CASE. ................................... 2
REASONS FOR DENYING THE PETITION. ........... 9
I.

The Alleged Circuit Split Is Illusory. ............. 10

II.

This Case Does Not Otherwise
Warrant Certiorari. ....................................... 18

III. The Decision Below Is Correct. ..................... 27
CONCLUSION. ........................................................ 31

ii
TABLE OF AUTHORITIES
Page(s)
Federal Cases
ACRA Turf Club, LLC v. Zanzuccki,
748 F.3d 127 (CA3 2014).................................. 6, 19
Ahrensfeld v. Stephens,
528 F.2d 193 (CA7 1975)...................................... 21
Austin v. United States,
509 U.S. 602 (1993) .............................................. 28
Bristol-Myers Squibb Co. v. Connors,
979 F.3d 732 (CA9 2020)........................... 14, 16-18
Chamber of Commerce of U.S. v.
Whiting,
563 U.S. 582 (2011) .............................................. 28
Huffman v. Pursue, Ltd.,
420 U.S. 592 (1975) .............................................. 24
Hunter v. Hirsig,
660 F. App’x 711 (CA10 2016) ............................. 18
JMM Corp. v. District of Columbia,
378 F.3d 1117 (CADC 2004) ................................ 21
Marcus & Millichap Real Estate Inv.
Servs. of Nev. v. Chandra,
822 F. App’x 597 (CA9 2020) ............................... 18

iii
Middlesex County Ethics Comm. v.
Garden State Bar Ass’n,
457 U.S. 423 (1982) .............................. 8, 18, 20, 24
Minn. Living Assistance, Inc. v.
Peterson,
899 F.3d 548 (CA8 2018)........................... 12-14, 18
Mir v. Shah,
596 F. App’x 48 (CA2 2014) ................................. 18
Moore v. Sims,
442 U.S. 415 (1979) .............................................. 24
Mulholland v. Marion Cty.
Election Bd.,
746 F.3d 811 (CA7 2014)................................. 10-12
New Orleans Pub. Serv., Inc. v.
Council of New Orleans,
491 U.S. 350 (1989) .............................................. 30
Rynearson v. Ferguson,
902 F.3d 920 (CA9 2018)................................. 14-16
Sirva Relocation, LLC v. Richie,
794 F.3d 185 (CA1 2015)...................................... 29
Sprint Communs., Inc. v. Jacobs,
571 U.S. 69 (2013) ........................................ passim
Tokyo Gwinnett, LLC v. Gwinnett Cty.,
940 F.3d 1254 (CA11 2019).................................. 21
United States v. Halper,
490 U.S. 435 (1989) .............................................. 28

iv
Younger v. Harris,
401 U.S. 37 (1971) ........................................ passim
Zahl v. Harper,
282 F.3d 204 (CA3 2002)...................................... 24
State Cases
Carpet Remnant Warehouse, Inc. v.
New Jersey Dep’t of Labor,
593 A.2d 1177 (N.J. 1991).................................. 2, 3
Maisonet v. Dep’t of Human Servs.,
657 A.2d 1209 (N.J. 1995).................................... 24
Provident Inst. for Sav. in Jersey City v.
Div. of Emp’t Sec.,
32 A.2d 497 (N.J. 1960).......................................... 3
Federal Statutes
49 U.S.C. § 14501(c)(1) ................................................ 5
49 Stat. 620, ch. 531 (1935) ......................................... 2

v
State Statutes and Court Rules
N.J. Stat. Ann. §§ 2C:20-3......................................... 29
N.J. Stat. Ann. §§ 2C:20-4......................................... 29
N.J. Stat. Ann. §§ 34:1-1 to 34:21-15 .......................... 2
N.J. Stat. Ann. §§ 43:21-1 to -24.30 ............................ 2
N.J. Stat. Ann. § 43:21-2 ............................................. 3
N.J. Stat. Ann. § 43:21-7 ............................................. 3
N.J. Stat. Ann. § 43:21-9 ............................................. 2
N.J. Stat. Ann. § 43:21-11 ........................................... 2
N.J. Stat. Ann. § 43:21-14 ..................................... 4, 30
N.J. Stat. Ann. § 43:21-16 ................................. passim
N.J. Stat. Ann. § 43:21-19 ....................................... 3, 4
N.J. Stat. Ann. §§ 52:14F-1 to -23 .............................. 4
N.J. Admin. Code § 12:16-22.6(b) ............................. 24
N.J. Ct. R. 2:2-3(a)(2) ................................................ 24

1
INTRODUCTION
In the decision below, the Third Circuit evaluated
whether or not to abstain from resolving a particular
federal suit. The unanimous panel recited the multifactor test for abstention laid out in Younger v. Harris,
401 U.S. 37 (1971), and more recently in Sprint Communications, Inc. v. Jacobs, 571 U.S. 69 (2013), and it
held that abstention was warranted. The panel found
that the State of New Jersey had already initiated an
ongoing state civil enforcement proceeding against Petitioner for its failure to pay unemployment taxes;
that New Jersey was seeking to sanction Petitioner for
its misconduct by demanding penalties in the proceeding; that the State’s decision to proceed against Petitioner and seek sanctions followed a long investigation; and that Petitioner could raise its argument that
New Jersey law was preempted by the Federal Aviation Administration Authorization Act of 1994 in state
court instead. The Third Circuit explained that there
was nothing unfair about this: before Petitioner chose
to violate New Jersey law, and even as the State was
investigating Petitioner’s potential violations, the
company could have pursued these claims in federal
court. But because it decided to wait until after the
State had taken enforcement action, the principles of
comity underlying Younger abstention demanded that
Petitioner raise its preemption defense in the ongoing
state enforcement action instead.
No basis for certiorari exists as to that conclusion,
which does nothing more than apply this Court’s own
multi-factor abstention test to the facts of this particular lawsuit. For one, there is no circuit split on either
the outcome or the reasoning of the decision below. In
reality, every circuit relies on the same considerations

2
announced in Sprint when considering whether to abstain in favor of an ongoing state civil enforcement action, and they apply those considerations to the record
before them. There is no basis to say that this case
would have been resolved differently by any other circuit. For another, this case does not warrant a splitless grant: the case involves nothing more than a challenge to how a common body of law applies to one record; the panel ruling will not impact other cases; and
there are a number of vehicle problems, including an
antecedent question on the standard of review and Petitioner’s focus on challenging the interpretation of
New Jersey law. Finally, the decision below was right:
this case demands the federal courts abstain. There is
no basis for this Court to grant review.
STATEMENT OF THE CASE
1. The New Jersey Department of Labor and Workforce Development enforces and administers New Jersey’s various labor and workers’ compensation laws on
behalf of the State. N.J. Stat. Ann. §§ 34:1-1 to 34:2115. The Department also oversees and enforces New
Jersey’s Unemployment Compensation Law (“UCL”),
N.J. Stat. Ann. §§ 43:21-1 to -24.30, and administers
the State’s unemployment compensation fund. N.J.
Stat. Ann. §§ 43:21-11 and -9.
The UCL was established in 1936, following the
enactment of the Social Security Act in 1935, 49 Stat.
620, ch. 531 (1935), as part of a national response to
widespread unemployment that had accompanied the
Great Depression. See Carpet Remnant Warehouse,
Inc. v. New Jersey Dep’t of Labor, 593 A.2d 1177, 118385 (N.J. 1991). The “primary objective of the UCL is to
provide a cushion for the workers of New Jersey

3
‘against the shocks and rigors of unemployment.’” Id.,
at 1184 (quoting Provident Inst. for Sav. in Jersey City
v. Div. of Emp’t Sec., 161 A.2d 497, 500 (N.J. 1960));
see also N.J. Stat. Ann. § 43:21-2.
The UCL requires employers to pay into the State’s
unemployment compensation fund an amount in proportion to the wages each employer pays to its employees. See N.J. Stat. Ann. § 43:21-7. The UCL exempts
workers from being classified as employees (allowing
employers to avoid making unemployment tax contributions on their remuneration) if they satisfy a threepronged test. See N.J. Stat. Ann. § 43:21-19(i)(6). Under that test, all “[s]ervices performed by an individual for remuneration shall be deemed to be employment” such that taxes are owed unless their employer
proves “(A) Such individual has been and will continue
to be free from control or direction over the performance of such service, both under his contract of service and in fact; and (B) Such service is either outside
the usual course of the business for which such service
is performed, or that such service is performed outside
of all the places of business of the enterprise for which
such service is performed; and (C) Such individual is
customarily engaged in an independently established
trade, occupation, profession or business.” Id.; see also
Pet. App. 5 (summarizing New Jersey law).
In other words, employers must pay UCL tax contributions to the State on payments made to employees, but not on payments to independent contractors.
Pet. App. 5-6. There are other exemptions as well, in
addition to the one for independent contractors. One
such exemption, known as the “Truck Drivers Exemp-

4
tion,” exempts from coverage under the UCL any services performed by certain operators of motor vehicles
who meet several weight, licensing, and compensation-related factors—meaning the employer need not
pay unemployment taxes for the work these persons
perform. N.J. Stat. Ann. § 43:21-19(i)(7)(X).
2. Every year, the Department conducts audits of
employers operating in the State to ensure compliance
with the UCL, including to ensure that employers do
not misclassify their employees to avoid their unemployment tax obligations. In May 2012, after completing audits for the period of 2006 through 2009, the Department determined that Petitioner—a shipper operating in the State—had misclassified a number of its
truck drivers as independent contractors rather than
as employees. Pet. App. 5. The Department made similar findings after completing subsequent audits for
the period of 2010 through 2015. Id. Based on these
findings, the Department found that Petitioner failed
to pay the required contributions under the UCL, N.J.
Stat. Ann. §§ 43:21-14 and -16, assessed Petitioner for
the amount owed—including the principal, interest,
and penalties—and filed administrative judgments
for those assessments in 2015 and 2018. Pet. App. 6.
On February 19, 2015, Petitioner sought review of the
assessments at the New Jersey Office of Administrative Law (“NJOAL”).1 Id.
Seven months later, on September 22, 2015, Petitioner filed a complaint against the Commissioner in
The NJOAL is a centralized state agency tasked with conducting administrative hearings for the State’s executive departments. See N.J. Stat. Ann. §§ 52:14F-1 to -23.
1

5
the District of New Jersey, seeking declaratory and injunctive relief. Pet. App. 6-7. In this federal action, Petitioner argued the ongoing application of New Jersey
labor laws to its business was preempted by a particular provision of the Federal Aviation Administration
Authorization Act of 1994, 49 U.S.C. § 14501(c)(1). See
Pet. App. 7. Petitioner sought an order that it should
not have to pay contributions and penalties in the ongoing state enforcement action. Id.
On October 7, 2018, the Commissioner moved for
judgment on the pleadings on the basis (inter alia) of
the Younger abstention doctrine. Pet. App. 8. The District Court granted the Commissioner’s motion and
abstained under Younger. Pet. App. 8-9.
3. The Third Circuit affirmed in a unanimous decision. See Pet. App. 3-27. The panel first began by noting a split as to whether review of a decision to abstain
is de novo or for abuse of discretion, Pet. App. 14 n.11
(collecting cases), and—based on its precedent—sided
with Petitioner that review was de novo. Id. The panel
then applied a straightforward analysis of this Court’s
Younger abstention decisions, and found the Department’s ongoing action against Petitioner is the kind of
action in which Petitioner can raise the same preemption arguments and to which abstention is ultimately
warranted. Pet. App. 16-20.
The panel initially explained that while “a federal
court’s ‘obligation’ to hear and decide a case is ‘virtually unflagging,’” Pet App. 15 (quoting Sprint, 571
U.S., at 77), Younger nevertheless requires a court to
abstain when three “types of state proceedings are ongoing at the time a federal case is commenced,” id. (citing Sprint, 571 U.S., at 77). As the panel noted, these

6
categories are: (1) criminal proceedings, (2) select civil
enforcement proceedings, and (3) proceedings involving orders in furtherance of state courts’ judicial function. Pet. App. 16 (citing Sprint, 571 U.S., at 78).
As to the second category under Younger, the panel
recognized that abstention in light of a civil enforcement proceeding would only be proper if that enforcement proceeding was structurally “akin” to state criminal proceedings in “important respects,” Sprint, 571
U.S., at 79-80, which the panel denoted as “quasicriminal,” Pet. App. 16. To determine whether a civil
enforcement proceeding qualified, the panel walked
through the multi-factor test this Court set forth: that
“(1) the action was commenced by the State in its sovereign capacity, (2) the proceeding was initiated to
sanction the federal plaintiff for some wrongful act,
and (3) there are other similarities to criminal actions.” Pet. App. 16 (quoting ACRA Turf Club, LLC v.
Zanzuccki, 748 F.3d 127, 138 (CA3 2014), and citing
Sprint, 571 U.S., at 79-80)). As to that final factor, the
Third Circuit—relying on Sprint—noted that it would
consider whether the action involved “a preliminary
investigation that culminated with the filing of formal
charges,” as well as “whether the State could have alternatively sought to enforce a parallel criminal statute.” Id. (quoting ACRA Turf Club, 748 F.3d, at 138,
and citing Sprint, 571 U.S., at 79-80).
“Considering these factors together,” the panel determined that the facts supported abstention in favor
of the ongoing New Jersey proceeding. Pet. App. 20.
First, the panel found that the “state administrative
action was commenced by New Jersey in its sovereign
capacity as to [Petitioner].” Pet. App. 17. Specifically,

7
the panel explained that unlike cases where no state
actor investigated or filed a complaint, the State—via
the Department—performed audits of Petitioner and
issued multiple formal assessments after culmination
of those audits. Id. Although Petitioner is the party
that sought review of the assessments in the NJOAL,
the panel identified that this was merely a function of
New Jersey’s administrative procedures, and that under state law, this still qualified as an enforcement action by the state actor. See Pet. App. 18.2
Next, the panel found this state enforcement proceeding sanctioned wrongful conduct. Id. The panel
rejected Petitioner’s sweeping claim that the civil remedies sought could never qualify as “sanctions.” Id. Instead, the court determined, “[s]anctions are retributive in nature and are typically imposed to punish the
sanctioned party ‘for some wrongful act,’” id. (citation
omitted), a category that could include certain civil
consequences. The panel identified record evidence
that this was just such an action to sanction Petitioner: the Department assessed Petitioner over
$30,000 in penalties for failing to pay its taxes, which
“are by their very nature, retributive: a sanction for
wrongful conduct.” Pet. App. 19. It found that this factor cut in favor of abstention as well. Id.

Indeed, under New Jersey law, the way a number of executive departments initiate civil enforcement actions is by providing assessments or other notices of violations, sometimes including penalties. The recipient can challenge that determination in
the NJOAL. The ALJ’s decision will be reviewed by the Commissioner who oversees the relevant department, and then by state
appellate courts. If the assessment is not challenged, under state
law the money assessed (including penalties) must be paid.
2

8
Finally, the panel examined whether there existed
a criminal analog. Id. The panel, of course, recognized
that “the question is not whether the current action is
criminal or whether criminal charges are warranted”
(as Petitioner contended); such a rule “would erase the
quasi-criminal category of abstention,” contrary to
Sprint’s teachings. Id. Instead, the issue was whether
there was a state criminal “analog” to this sort of action, further demonstrating the State’s powerful interest in its enforcement action. Pet. App. 20. The panel
found there was such an analog in this case because
the State could have vindicated similar interests by
holding Petitioner criminally liable under N.J. Stat.
Ann. § 43:21-16(e), which criminalizes certain failures
to pay unemployment taxes if the requisite intent requirement has been satisfied. Pet. App. 19-20. The
panel then noted Petitioner itself alleged in its complaint a concern about facing criminal charges in state
court for its misconduct. Pet. App. 20.
The panel also recognized that, in order to abstain,
it would need to consider the so-called Middlesex factors, named for the case where they were announced,
Middlesex County Ethics Commission v. Garden State
Bar Association, 457 U.S. 423 (1982). Pet. App. 16-17.
Abstention would only be warranted if “there are ‘ongoing judicial proceeding[s]’”; the “‘proceedings implicate important state interests’”; and “there is ‘an adequate opportunity in the state proceeding to raise constitutional challenges.’” Id. (quoting Middlesex, 457
U.S., at 432). Those considerations were easily satisfied: a state action was proceeding at the time the federal suit was filed; the action implicated important interests both in the collection of unemployment taxes

9
and the enforcement of state law through proper channels; and Petitioner could raise its preemption defenses in the state appellate courts. See Pet. App. 2122. Weighing all the factors together, the panel found
that the state action against Petitioner was the kind
that requires abstention under Younger. Pet. App. 20.
In the same opinion, the Third Circuit addressed a
claim by another company. In the District Court, another company that had been audited by the Department, SLS Delivery Services, Inc. (“SLS”), intervened
and raised the same causes of action and sought identical relief as Petitioner. Pet. App. 33-34. The District
Court dismissed SLS’s complaint, finding Younger abstention appropriate as to SLS’s claims too. Pet. App.
47-48. On appeal, the panel reversed and remanded
as to SLS, noting that while SLS was subject to an investigatory audit, SLS was not subject to any ongoing
state proceedings and did not have an adequate opportunity to present constitutional claims in state court.
Pet. App. 25-26. Therefore, the panel found Younger
abstention was inappropriate as to SLS. Pet. App. 26.
(The Third Circuit thus formally affirmed the District
Court in part and reversed and remanded in part, but
as to Petitioner, the panel affirmed the judgment entirely.) Respondent did not file a petition for certiorari
from the ruling as to SLS.
REASONS FOR DENYING THE PETITION
None of the traditional criteria support certiorari.
As a threshold matter, the Third Circuit’s decision to
abstain on the facts of this case did not generate a split
requiring resolution by this Court. Nor is this the rare
case that involves a split-less error in need of correction: there is no dispute over the governing abstention

10
test, only its application; the decision below will have
no sweeping impact; and the Petition introduces vehicle problems. In any event, the panel decision was also
rightly decided under this Court’s precedents.
I.

The Alleged Circuit Split Is Illusory.

The decision below does not conflict with—or even
create tension with—the decision of any other circuit.
Petitioner’s asserted splits with the Seventh, Eighth,
and Ninth Circuits rely upon fundamental misunderstandings of those circuits’ decisions, and of the decision below. Each circuit has instead applied Sprint’s
multi-factor analysis for abstention to the facts before
them, and they have done so in a consistent way.
1. No split exists with the Seventh Circuit. In support of its position, Petitioner relies upon Mulholland
v. Marion County Election Board, 746 F.3d 811 (CA7
2014), but that matter could not differ more from the
instant case. In Mulholland, the federal plaintiff was
an Indiana state legislative candidate who allegedly
violated Indiana’s election law. Id., at 813. The Marion County Election Board scheduled a meeting to
hear from interested persons about the candidate’s alleged misconduct and to determine what steps it
would take in response. Id., at 814-15. The candidate
then challenged the election law in federal court on
First Amendment grounds, and the Election Board
postponed the scheduled meeting and moved to dismiss the federal action under Younger. Id. The Seventh Circuit concluded on those facts that abstention
was not warranted.
The Seventh Circuit offered three reasons why abstention was inappropriate, none of which apply here.
First, the Seventh Circuit held “the Election Board’s

11
investigation is too preliminary a proceeding to warrant Younger abstention,” id., at 813, since “a federal
court need not decline to hear a constitutional case
within its jurisdiction merely because a state investigation has begun,” id., at 817. That is consistent with
the decision below, which likewise asked whether the
State’s “preliminary investigation” was still ongoing
or whether it had already produced a “formal charge,”
and abstained in this case only because there was in
fact a charge by the State. Pet. App. 16 (citing Sprint,
571 U.S., at 79-80); see also Pet. App. 26 (declining to
abstain as to the claims of second company that was
being audited but had not yet been assessed). In short,
while the Marion County Election Board merely announced a future hearing to consider its options, the
Department here had completed an audit and issued
a formal assessment (including for penalties) that was
the subject of an ongoing state proceeding.
Second, the Seventh Circuit held that the Election
Board had no authority itself to sanction the plaintiff
for any wrongdoing through the hearing, and that the
Board could only recommend prosecution in a distinct
proceeding by a prosecutor, who would have “complete
discretion” over whether to accept that recommendation. Mulholland, 746 F.3d, at 817. It made sense that
the Seventh Circuit would reject the notion of abstention in that case, given this Court’s focus on whether
the ongoing state action was initiated to “sanction” the
federal plaintiff. Sprint, 571 U.S., at 79-80. But it is,
of course, another critical difference from the decision
below: here, the Commissioner can do more than recommend a punishment, and is instead seeking penalties—a classic sanction not addressed in Mulholland.

12
See Pet. App. 19 (noting “Commissioner has imposed
over $30,000 in penalties on PDX”).3
The Seventh Circuit provided a third “independent
reason for not abstaining”: the Board was “attempting
to enforce a statute that ha[d] already been held unconstitutional in a final judgment against the Board”
by a federal court in 2003. Mulholland, 746 F.3d, at
818. That defiance qualified as an “extraordinary circumstance” undermining abstention. Id., at 813, 818.
But no one alleges that any similar judgment has ever
been issued against the Commissioner, meaning that
this factor similarly distinguishes Mulholland from
the decision below, and justifies refusing to abstain in
the former alone. Simply put, these meaningfully distinct cases called for distinct outcomes under the same
black letter abstention analysis.
2. If anything, the claimed split between the decision below and the Eighth Circuit is even weaker. Petitioner relies on Minnesota Living Assistance v. Peterson, 899 F.3d 548 (CA8 2018), cert. denied, 139 S. Ct.
1195 (Feb. 19, 2019), but that case involved a circuit’s
decision to abstain and supports the decision below.

Seeking to establish a conflict, Petitioner claims the Seventh Circuit’s analysis focused on whether “the applicable election statute presented any ‘possibility of [a] criminal penalty.’”
Pet. 19 (quoting Mulholland, 746 F.3d, at 816-17). Petitioner severely misconstrues that decision. The Seventh Circuit did not
consider whether the Indiana election law at issue contained any
sort of criminal analog. See Mulholland, 746 F.3d, at 816-18. Instead, the court looked to the Election Board’s general “authority
to sanction” the plaintiff and concluded that the specific hearing
at issue could not lead to any such sanctions and could only lead
to recommendations. Id., at 817. That is inapposite.
3

13
In Peterson, an employee of Minnesota Living Assistance, Inc. (referred to in that case as “Baywood”),
filed a 2014 complaint alleging that Baywood violated
the Minnesota Fair Labor Standards Act (“MFLSA”)
by failing to pay overtime compensation from March
2012 to March 2014. Id., at 551. The Minnesota Department of Labor and Industry (“DLI”) investigated
and determined Baywood had not paid employees the
wages required. Id. In May 2016, DLI issued an order
assessing a penalty of $1,000 for the failure to keep
records and requiring Baywood to pay back wages and
liquidated damages. Id. In August 2016, after Baywood contested the compliance order, DLI initiated a
contested case proceeding before an administrative
law judge at the Minnesota Office of Administrative
Hearing. Id. Baywood then filed a suit in federal district court seeking a declaration that the federal Fair
Labor Standards Act preempted the MFLSA. Id. The
Eighth Circuit found abstention appropriate, just as
the panel did here. Id., at 553.
The Eighth Circuit asked the same question that
the panel below did—namely, whether there is “a civil
enforcement proceeding resembling a criminal prosecution,” meaning one in which “(1) the action was initiated by the State in its sovereign capacity; (2) the
action involves sanctions against the federal plaintiff
for some wrongful act; and (3) the action includes an
investigation, often culminating in formal charges.”
Id., at 552 (citing Sprint, 571 U.S., at 79-80). The
Eighth Circuit, in language reminiscent of the decision below, explained that the first and third factors
supported abstention “because the action was initiated by the State, via the DLI, following an investigation into Baywood’s failure to pay overtime wages to

14
companionship-services employees.” Id.; see Pet. App.
17-20 (making same points as to initiation by State
after a departmental investigation).
Although Petitioner focuses on the Eighth Circuit’s
analysis of the second prong—whether there is a sanction for a wrongful act—Petitioner misapprehends the
Eighth Circuit’s opinion. Petitioner suggests that the
Eighth Circuit only abstained in favor of the Minnesota action because the MFLSA provides for criminal
penalties, even if DLI did not seek them. Pet. 18 (citing Peterson, 899 F.3d, at 553). That is not what the
Eighth Circuit said. Instead, the court explicitly emphasized DLI was seeking to sanction the company’s
wrongful conduct because it was imposing liquidated
damages and because it was seeking to restrain Baywood’s future conduct. See Peterson, 899 F.3d, at 553.
The Eighth Circuit could not have been clearer on this
point: “Though not themselves criminal penalties, the
sanctions sought support Younger abstention.” Id.
(emphasis added). In short, while the Minnesota labor
laws providing for criminal penalties certainly bolster
a decision to abstain, the Eighth Circuit nowhere said
that such a provision was necessary, and the court instead treated civil remedies as qualifying sanctions.
There is no split between these decisions, which both
affirmed abstention orders.
3. Finally, Petitioner gets no further by referencing
two Ninth Circuit cases, Rynearson v. Ferguson, 903
F.3d 920 (CA9 2018), and Bristol-Myers Squibb Co. v.
Connors, 979 F.3d 732 (CA9 2020), cert. denied, __ S.
Ct. __ (June 21, 2021).
Begin with Rynearson, which (just like the Seventh
Circuit decision discussed above) has next-to-nothing

15
in common with the decision below. That case involved
a state court action between two private parties where
one individual was seeking a stalking protection order
against the other. Rynearson, 903 F.3d, at 922. In response to the state proceeding, the defendant brought
suit in federal district court challenging the constitutionality of Washington’s cyberstalking statute, which
formed the basis for the state protection order pursued
against him. Id., at 924. The question was whether abstention was warranted as to the private protective order proceedings in Washington state court.
Although the Ninth Circuit held abstention was inappropriate, it relied upon considerations that are not
present here. Id., at 925-26. For one, the Ninth Circuit
explained that the party who initiated the state court
action “is a private party, not the state or local government,” and that state “law does not require state authorities to conduct any investigation or file charges
or a complaint in connection with an application for a
protection order, and state actors are not party to the
protection proceedings.” Id., at 925; see also id., at 923
(noting prosecutor indicated no plans on filing charges
against the state court defendant). That is hugely different from this case, which involved a state-initiated
enforcement action after a government-run investigation. Pet. App. 17-20 (citing Sprint, 571 U.S., at 7980). For another, closely reviewing the relevant Washington law, the Ninth Circuit found that protective orders in Washington were designed only to protect the
applicant, not to sanction misconduct. Rynearson, 903
F.3d, at 922. But that case did not involve any request
for penalties, and thus did not address (or dispute) the
Third Circuit’s conclusion that such remedies can still
qualify as sanctions for wrongful conduct.

16
Petitioner details a single sentence from the Ninth
Circuit opinion to allege a split, but it comes up short.
Petitioner notes that, as the Ninth Circuit found, “the
mere fact that the protection order law refers to criminal statutes does not mean that protection order proceedings are quasi-criminal.” Id., at 926 (emphasis
added). But no one disagrees with that point—least of
all the Third Circuit. Rather, there is significant other
evidence in this case that abstention is warranted: the
State’s own preliminary investigation; the initiation of
a state proceeding by a public entity; and the effort by
the State to sanction state lawbreaking, in particular
by seeking penalties. See Pet. App. 20 (explaining its
decision to abstain was based on all the Sprint “factors
together,” not solely based on a reference to a criminal
statute). None of that was present in Rynearson.
Finally, Petitioner also relies upon Connors. There,
in 2014, Hawai’i filed a suit in state court against several pharmaceutical companies that produced a medication to help prevent heart attacks and strokes. Connors, 979 F.3d, at 735. Hawai’i alleged that the companies had intentionally concealed health information
in violation of state law prohibiting unfair or deceptive
acts. Id. These companies responded in January 2020
with a federal suit seeking an injunction against the
state proceedings, arguing the Hawai’i law at issue violated their First Amendment rights. Id.
It is genuinely unclear why Petitioner believes the
Ninth Circuit’s decision in Connors helps it, because
Connors agreed that abstention was warranted. Id., at
734. The panel held (contrary to Petitioner’s claims)
that the factors for abstention laid out in Sprint are
the sort that should be “typically present,” but are not

17
“criteria that are always required.” Id., at 737; see also
id. (explaining that Sprint’s multi-factor test should
not be treated like a “checklist”). And then turning to
that test, Connors found abstention justified in favor
of a proceeding in which the State sought exclusively
civil penalties and punitive damages to sanction companies for their deceptive conduct—as those could still
qualify as sanctions for wrongful conduct. Id., at 738.
The Ninth Circuit added that even as important federal interests were at stake, namely First Amendment
rights, “the existence of a chilling effect ... has never
been considered a sufficient basis, in and of itself, for
prohibiting state action.” Id. (quoting Younger, 401
U.S., at 51) (quotation marks omitted). The Ninth Circuit did not announce any rule or outcome which conflicts with the Third Circuit’s approach here.
All Petitioner can muster in support of its conflict
is that Connors allegedly properly asked whether the
specific state case was a qualifying civil enforcement
action, while the decision below allegedly improperly
looked at a “hypothetical” criminal charge that could
have been brought but was not. Pet. 21. That fails on
a number of levels. For one, Petitioner’s reading of the
Ninth Circuit is simply wrong: Connors confirms that
an abstention analysis looks to the “general class” of
cases, id., at 738, and notes explicitly that “[a]ccepting
the companies’ invitation to scrutinize the particular
facts of a state civil enforcement action would offend
the principles of comity at the heart of the Younger
doctrine.” Id., at 737. For another, Petitioner misconstrues what the Third Circuit did: the panel painstakingly reviewed the actual, ongoing state civil enforcement proceeding to determine if it met the Sprint fac-

18
tors, and mentioned the potential for criminal enforcement solely in assessing the presence of a criminal analog. Pet. App. 17-18. And finally, there is a tension in
the Petition on this point: in drawing a contrast with
the Eighth Circuit, Petitioner details the hypothetical
criminal proceeding the DLI could have pursued, but
in discussing Connors, Petitioner suggests that hypothetical action is irrelevant. Petitioner cannot have it
both ways, and its claims of a split are lacking.4
II.

This Case Does Not Otherwise Warrant
Certiorari.

Petitioner claims that certiorari is warranted even
absent a split, but that is incorrect for three independent reasons: this is a dispute not over legal principles
but over their application to the facts; the decision will
have limited practical impact on any other cases; and
vehicle problems complicate review.

Finally, Petitioner asserts without proof that no other court
has abstained under Younger in favor of what Petitioner terms a
“purely civil” proceeding. Pet. 17. That is wrong. As noted above,
Connors involved a decision to abstain in favor of a civil proceeding that sought penalties and damages, 979 F.3d, at 739, and Peterson involved abstention given an ongoing state administrative
enforcement in which the agency declined to seek criminal penalties for violations of labor law. 899 F.3d, at 552-53. Nor are they
alone. See, e.g., Middlesex, 457 U.S., at 433-34 (state-initiated
disciplinary proceedings against lawyer for violation of ethics
rules); Mir v. Shah, 596 F. App’x 48, 51 (CA2 2014) (state proceeding against physician to revoke license); Marcus & Millichap
Real Estate Inv. Servs. of Nev. v. Chandra, 822 F. App’x 597, 598
(CA9 2020) (disciplinary proceeding against real estate brokers);
Hunter v. Hirsig, 660 F. App’x 711 (CA10 2016) (disciplinary proceedings to revoke insurance agents’ licenses).
4

19
1. As an initial matter, certiorari is not warranted
because the Third Circuit correctly stated the governing test for abstention, and the parties simply debate
its fact-bound application to this case. As explained
above, the Third Circuit correctly recognized that federal jurisdiction is the rule, and that Younger abstention is only appropriate for three categories of ongoing
state proceedings: (1) criminal prosecutions, (2) select
civil enforcement proceedings, and (3) proceedings involving orders in furtherance of the state courts’ judicial function. Pet. App. 16 (quoting ACRA Turf Club,
748 F.3d, at 138, and citing Sprint, 571 U.S., at 78).
Petitioner does not, and cannot, deny that this Court
has said precisely the same.
The panel also correctly stated the test for whether
an ongoing civil enforcement proceeding—the only applicable category—required abstention. Far from concluding that all civil enforcement proceedings sufficed,
this Court has instructed to ask whether the underlying state proceeding is like a criminal action in “important respects”: if so, abstention is proper; if not, it
is not. Sprint, 571 U.S., at 79-80. Relying directly on
Sprint’s test, the panel followed the same step-by-step
analysis this Court has used, asking whether the action “was commenced by the State in its sovereign capacity”; whether the suit “was initiated to sanction the
federal plaintiff for some wrongful act”; and whether
“there are other similarities to criminal actions,” such
as “a preliminary investigation that culminated with
the filing of formal charges” or the existence of a state
law criminal analog. Pet. App. 16 (citing Sprint, 571
U.S., at 79-80)). If this Court compares the multi-factor test in Sprint with the test the panel relied on below, it will find a perfect overlap.

20
The panel further recognized that even assuming
a civil proceeding is quasi-criminal in nature, a federal
court must still consider whether the Middlesex factors weigh in favor of abstention. Pet. App. 16-17. Before deciding to abstain, the panel therefore appropriately asked whether “there are ‘ongoing judicial proceeding[s]’”; whether the “‘proceedings implicate important state interests’”; and whether “there is ‘an adequate opportunity in the state proceeding to raise
constitutional challenges.’” Id. (quoting Middlesex,
457 U.S., at 432). Petitioner does not contest these
considerations, nor could it: all of them have been established explicitly by this Court. As before, a side-byside review of this Court’s precedents and the decision
below will provide a seamless match.
This Court in Sprint recited in extensive detail the
multi-factor test that governs questions of abstention.
There is no dispute the Third Circuit used that test,
and there is no request in this case to actually change
any of the governing factors. Instead, Petitioner is just
unhappy with how a unanimous panel applied those
factors here. That is hardly the sort of question that—
absent a split—justifies certiorari.
2. Although Petitioner claims that the mere impact
of the panel’s application of Younger justifies certiorari, that is wrong. Petitioner’s sweeping claims about
the reach of the panel decision are contrary to both the
Third Circuit’s decision and the record.
First, Petitioner baldly claims that the decision below will “extend Younger to virtually all parallel state
and federal proceedings where a party can identify a
plausible important state interest.” Pet. 14; see also
id. (complaining that that the Third Circuit’s decision

21
“all but ensures that a State will prevail on abstention
grounds”). That is simply incorrect. Instead, the Third
Circuit specifically evaluated not only whether there
was an ongoing state proceeding affecting important
state interests, but also whether the State itself initiated the proceeding; whether the proceeding was initiated to sanction wrongful conduct (in part by reviewing the remedies the State sought); whether the proceeding followed a preliminary investigation; whether
state law established a criminal analog to the enforcement proceeding; and whether the federal preemption
defense could be raised in the state proceedings. Pet.
App. 16-19 (analyzing multi-factor test); see also Pet.
App. 20 (only agreeing to abstain after “[c]onsidering
these factors together”).5
Put simply, rather than breaking doctrinal ground,
the panel conducted a careful, reasoned examination
of the specific facts and circumstances of the state enforcement action and held that—on balance—the proceeding satisfied Sprint’s multi-factor test for abstention. See Pet. App. 17-22. Petitioner is of course dissatisfied with how some of the factors were analyzed,
but they were still central to the ruling, and the decision below hardly stands for the proposition that all

Indeed, by the nature of its multi-factor test, Younger cases
consistently require the courts to examine such facts on a “caseby-case basis and not as a matter of the application of a general
rule.” Ahrensfeld v. Stephens, 528 F.2d 193, 197 (CA7 1975); see
also JMM Corp. v. Dist. of Colum., 378 F.3d 1117, n.10 (CADC
2004) (explaining that because Younger abstention is determined
on a case-by-case basis, the holding is limited to the specific proceeding before the court); Tokyo Gwinnett, LLC v. Gwinnett Cty.,
940 F.3d 1254, 1272 (CA11 2019) (same).
5

22
enforcement actions qualify for abstention. Said another way, future parties can (and undoubtedly will)
debate whether abstention is warranted in any case in
which the State did not initiate the proceeding, there
was no criminal analog, the State sought no penalties,
or a preemption defense could not be raised in state
court, and the panel did not foreclose them from doing
so. Absent this perfect confluence of factors, the decision below will not necessarily control.
Petitioner’s second consequentialist argument focuses more concretely on the context of labor audits in
New Jersey, but it fares no better. Petitioner says that
because the Department regularly initiates audits of
employers operating in New Jersey, the panel’s decision effectively means the Department is “initiating a
quasi-criminal proceeding against thousands of employers per year, all of which are now barred from any
challenge to the [Department] in federal court.” Pet.
15. But that claim is baseless, and finds no support in
the decision below. Far from stating that every single
audit triggers Younger abstention and precludes federal courts from hearing a preemption defense, a party
could (1) challenge New Jersey law as preempted before it decides to unlawfully refuse to pay taxes, or (2)
challenge state law while an audit is ongoing but prior
to the initiation of the state enforcement proceedings.
The only thing the panel held a company cannot do is
what Petitioner did—violate New Jersey law, wait until the State completes its preliminary investigation
and initiates formal state proceedings to sanction that
misconduct (including by seeking penalties), and then
sue the State directly in federal court to raise an issue
that could instead easily be raised in the now-ongoing
state judicial action. That is a narrower holding than

23
Petitioner lets on, and one driven by important principles of comity and equity.
There can be no doubt that Petitioner is wrong as
to the reach of the Third Circuit’s opinion: in the same
opinion affirming abstention as to Petitioner’s claims,
the panel reversed abstention as to a second company
audited by the Department—SLS. Pet. App. 4. Unlike
for Petitioner’s case, the Department’s audit of SLS
had not yet concluded at the time the federal action
was filed. Pet. App. 33. It followed, the panel reasoned,
that because SLS was still in that audit phase, there
was no “ongoing judicial proceeding for Younger abstention purposes.” Pet. App. 25. In reaching this decision, the panel rejected an argument by the State
that “once the Department initiates a formal audit, an
‘ongoing judicial proceeding’ exists for Younger purposes.” Pet. App. 24-25. The panel’s clear holding as to
SLS belies Petitioner’s breathless claim that the decision below will lead to “thousands of employers per
year” being barred from suing New Jersey in federal
court when an audit begins.6
Petitioner’s final argument as to the impacts of the
decision below is weaker still. Petitioner worries “the
panel’s opinion and analysis will significantly hinder

That is why Petitioner’s offensive claim that the State will
“initiat[e] a frivolous state proceeding to bar a business from raising meritorious claims in its defense,” Pet. 23, makes no sense on
its face. Petitioner, like SLS, had ample time to raise a preemption argument in federal court, including before it chose to violate
New Jersey’s labor laws. It declined to do so—opting to simply
break New Jersey law and then attempt to evade the very proceedings sanctioning that lawbreaking.
6

24
a business’s ability to challenge unconstitutional regulations.” Pet. 23. But it will do nothing of the sort.
Even in those cases in which abstention is warranted
in favor of an ongoing state proceeding, the employer
is not precluded from raising its constitutional challenge; indeed, one of the Middlesex factors for abstention is that they be able to do so. See 457 U.S., at 432.
That is certainly the case here. See Zahl v. Harper,
282 F.3d 204, 210-11 (CA3 2002) (explaining that a
preemption challenge can be addressed in New Jersey’s administrative and appellate proceedings) (citing N.J. Ct. R. 2:2-3(a)(2)); N.J. Admin. Code § 12:1622.6(b); Maisonet v. Dep’t of Human Servs., 657 A.2d
1209, 1212 (N.J. 1995)). If Petitioner believes that federal law preempts New Jersey’s laws, it can raise that
claim in the state appellate court, the New Jersey Supreme Court, and then this Court.
Petitioner evidently believes that the New Jersey
courts would not properly hear such defenses, but this
Court has consistently rejected “any presumption that
the state courts will not safeguard federal constitutional rights.” Middlesex, 457 U.S., at 431; see also
Moore v. Sims, 442 U.S. 415, 430 (1979) (“emphatically reject[ing]” the contention that “state courts [are]
not competent to adjudicate federal constitutional
claims”); Huffman v. Pursue, Ltd., 420 U.S. 592, 611
(1975) (“Appellee is in truth urging us to base a rule
on the assumption that state judges will not be faithful to their constitutional responsibilities. This we refuse to do.”). This case is about where Petitioner must
raise its arguments, not whether it can do so.
Across the board, Petitioner misstates the results
on the decision below. The Third Circuit’s ruling does

25
not mean that every civil proceeding in state court will
qualify for abstention. It does not mean every labor
audit in New Jersey will qualify for abstention. And it
does not mean that Petitioner is precluded from raising a preemption argument (or, for that matter, any
other federal constitutional argument). All it means is
that Sprint’s multi-factor test for Younger abstention
continues to govern this case and every other.
3. Finally, three independent vehicle problems also
stand in the way of review in this case. The first problem is that resolution of the fact-bound question Petitioner presents would be complicated by the existence
of an antecedent question: the standard of review that
should apply to the District Court’s decision to abstain
under Younger. The Third Circuit noted disagreement
among the lower courts on this question, see Pet. App.
14 n.11 (collecting cases demonstrating a dispute over
the applicable standard of review), but answered that
question in favor of Petitioner here—reviewing the abstention question de novo, rather than for an abuse of
discretion. Petitioner glosses over this issue, but because the District Court decided to abstain, this Court
would need to evaluate what standard applies before
it could grant Petitioner relief. Antecedent questions
that were resolved by the lower court in favor of Petitioner are frequently reason enough to deny certiorari
and await a better vehicle.
Second, Petitioner’s own pleadings make this case
a poor vehicle for reviewing Petitioner’s arguments. A
key premise of the instant Petition is that Younger abstention is inappropriate because “the Panel never references a parallel criminal statute or criminal code
provision” that could have been enforced against the

26
company. Pet. 9. Leaving aside that Petitioner misunderstands how the Younger analysis is generally supposed to work, see Part III, infra, there is an obvious
factual problem: Petitioner itself “acknowledge[d] the
risk of New Jersey criminally charging them in their
pleadings, stating they fear criminal consequences.”
Pet. App. 20. If this Court wishes to evaluate whether
Younger abstention applies to a civil enforcement proceeding that has no criminal analog (as Petitioner incorrectly posits happened here), it should not do so in
a case in which Petitioner’s own pleadings allege concerns about state criminal consequences—and where
the panel explicitly relied on those allegations.
Third, Petitioner’s argument brings in questions of
New Jersey state law, which are not appropriate uses
of this Court’s time and resources. As noted above, a
premise (if not the premise) of this Petition is that the
panel abstained in the face of a civil enforcement proceeding without identifying a parallel state criminal
law. The problem for Petitioner is that the panel did
identify such criminal analog, N.J. Stat. Ann. § 43:2116(e), but Petitioner believes that was an “erroneous”
reading of state law. See Pet. 9-10, 13-14 (arguing that
as a matter of New Jersey law, N.J. Stat. Ann. § 43:2116(e) itself is a civil statute with quasi-criminal consequences, rather than a criminal law). In other words,
to side with Petitioner on Petitioner’s own theory, this
Court would have to evaluate whether a circuit court
misconstrued a particular state statute as criminal or
civil, and review state case law to make that call. That
Petitioner’s case demands this Court engage in a state
law inquiry further counsels against review.

27
III.

The Decision Below Is Correct.

Not only does Petitioner seek certiorari in a splitless, fact-bound case, but the panel’s decision reflects
the correct application of this Court’s precedents. As
noted above, the claim that a court misapplied a correctly stated rule of law is ordinarily not grounds for
this Court’s review. But in any event, the application
of Younger and Sprint to this case was right.
In assessing whether this proceeding was a civil
enforcement action that triggers Younger, the panel
scrutinized the record. First, the panel correctly noted
that the underlying state proceeding “was commenced
by New Jersey in its sovereign capacity” as “the Commissioner performed multiple audits of [Petitioner]
and issued multiple formal assessments after the culmination of those audits.” Pet. App. 17. While Petitioner was technically the party seeking review of the
audit in the NJOAL, the panel explained that this was
merely a function of New Jersey’s administrative procedures—and that the State was really the one to commence this state enforcement action under New Jersey law. Pet. App. 18. Not only that, but the Department also filed administrative judgments for those assessments in 2015 and 2018, which had the full force
and effect of court orders. See Pet. App. 6. There is no
doubt the State initiated the ongoing action to which
the panel abstained, and the Petition does not appear
to challenge this conclusion.
Second, the panel looked to whether the enforcement action sanctioned wrongful conduct. The panel,
in holding that the action did sanction wrongful conduct, relied on the Commissioner’s decision to impose
over $30,000 in penalties, finding that these penalties

28
were assessed to sanction Petitioner for its failure to
remit taxes. Pet. App. 18-19. Petitioner contests this
point, claiming the Department’s action was not initiated to “sanction” Petitioner because the remedy is ultimately civil. Pet. 15. But as the Third Circuit explained, even civil “[p]enalties are, by their very nature, retributive: a sanction for wrongful conduct.”
Pet. App. 19. This Court has said the same. See United
States v. Halper, 490 U.S. 435, 448 (1989) (“[A] civil
sanction that cannot fairly be said solely to serve a remedial purpose, but rather can only be explained as
also serving either retributive or deterrent purposes,
is punishment, as we have come to understand the
term.”); Chamber of Commerce of U.S. v. Whiting, 563
U.S. 582, 589 (2011) (agreeing there can be “both civil
and criminal sanctions”); Austin v. United States, 509
U.S. 602, 610 (1993) (“The notion of punishment …
cuts across the division between the civil and criminal
law.”). Given the Department’s demand for penalties,
it is clear that the State is seeking sanctions for the
wrongful act of withholding unemployment taxes, notwithstanding Petitioner’s protestations.
Finally, it is also the case that there are other similarities to criminal actions—the final part of Sprint’s
multi-factor test. See Pet. App. 16. For one, there was
“a preliminary investigation that culminated with the
filing of formal charges.” Sprint, 571 U.S., at 79-80.
The record in this case is clear that, for years, the Department conducted a preliminary investigation (over
multiple periods) to determine whether Petitioner was
properly paying unemployment taxes. Pet. App. 5 (discussing the audits of Petitioner for the 2006-2009 period and 2010-2015 period). Those “preliminary investigations” culminated in a “formal charge,” Sprint, 571

29
U.S., at 79-80: an assessment of Petitioner for taxes
owed—including penalties—and administrative judgments for the assessments, all of which must be paid
or litigated. Pet. App. 6. Petitioner never refutes the
existence of an investigation.
Petitioner’s gripe instead concerns the panel evaluation of the remaining consideration in the multi-factor test: the presence of a criminal analog under New
Jersey law. See Pet. 9-10, 13-14. As noted above, the
panel found that this consideration supported abstention because “[u]nder New Jersey law, employers who
do not pay or withhold contributions as lawfully required may face a $1,000 fine and a sentence of imprisonment of up to ninety days.” Pet. App. 19-20 (citing N.J. Stat. Ann. § 43:21-16(e)). Petitioner argues
that this is not a criminal provision at all, but the text
of the state law refers to an “offense upon conviction,”
and includes imprisonment on its list of punishments.
N.J. Stat. Ann. § 43:21-16(e). Not only that, but Petitioner ignores that other provisions of state criminal
law may well apply to this sort of misconduct, see N.J.
Stat. Ann. §§ 2C:20-3 (theft by unlawful taking), -4
(theft by deception), and that the presence of a criminal analog is but one part of a multi-factor test.7

As to that last point, Sprint requires only that the state civil
enforcement proceeding be “akin to a criminal prosecution” in
“important respects.” 571 U.S., at 79. The existence of a parallel
criminal statute or criminal code is not dispositive of that issue.
Instead, courts undertaking a Younger analysis must holistically
review the factors presented by this Court to determine whether,
on balance, abstention is appropriate under the specific facts. See
id., at 79-91; Sirva Relocation, LLC v. Richie, 794 F.3d 185, 19394 (CA1 2015) (“[T]hough the availability of parallel criminal
7

30
Even as every factor in Sprint’s balancing test cuts
toward abstention, Petitioner argues generally that
abstention is simply not proper under a “purely civil”
statute. Pet. 13; see also Pet. 11-13 (arguing in detail
that N.J. Stat. Ann. § 43:21-14, the basis for the state
enforcement against Petitioner, is a civil law that only
allows the Department to seek civil remedies). But
there is nothing wrong with the idea that, in the appropriate case, abstention in favor of a civil enforcement proceeding could be warranted. Indeed, this
Court in New Orleans Public Service v. Council of New
Orleans, 491 U.S. 350 (1989), specifically held that
“comity and federalism” concerns required “expand[ing] the protection of Younger beyond state criminal prosecutions,” id., at 367-68, and Sprint was explicit that abstention can apply to civil enforcement
proceedings that are structurally “akin to a criminal
prosecution” in “important respects.” 571 U.S., at 79.
Although Petitioner seems to think that a “quasicriminal” proceeding means one where the offense is
at least partially substantively criminal, this Court instead explained that it refers to a civil enforcement action that (1) follows an investigation, (2) is initiated by
the State and remains ongoing, and (3) seeks to sanction misconduct by the defendant in that action. Id.
Said another way, the point of extending Younger to
civil enforcement proceedings was to provide federal
courts the ability to abstain from those matters that
are structurally similar to a criminal proceeding—i.e.,

sanctions may be a relevant datum … it is not a necessary element when the state proceeding otherwise sufficiently resembles
a criminal prosecution.”).

31
cases where there is an investigation, and then an action in the state system to sanction misconduct—and
not just criminal proceedings themselves. The panel,
“[c]onsidering these factors together,” found that this
case that implicated abstention. Pet. App. 20. Review
of that determination is not warranted.
CONCLUSION
This Court should deny the petition.
Respectfully submitted,
GURBIR S. GREWAL
Attorney General
State of New Jersey
JEREMY M. FEIGENBAUM*
State Solicitor
MELISSA H. RAKSA
Assistant Attorney General
EMILY M. BISNAUTH
CHRISTOPHER WEBER
RYAN J. SILVER
Deputy Attorneys General
25 Market Street
Trenton, New Jersey 08625
Jeremy.Feigenbaum@njoag.gov
*Counsel of Record
Counsel for Respondent Robert
Asaro-Angelo
July 13, 2021

